                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDITM

 Case Number: 1-08100053                                                                     Page 1 of 1



         ,       We received an allegation that a Principal Investigator (PI)1 on two NSF Grants 2 to a
         university3 had used NSF funds to support his private company.4

                  Our investigation identified that the PI did take actions on NSF grants that benefited the
         initial development of the company while also benefiting the work under the NSF grants. The' PI
         stated that he did not realize that his actions Were in violation of the university COl policies
         based on the developmental status of the company. The university required the PI to attend a
         special COl training and fully discuss his conflicts with the university conflicts committee. The
         PI voluntarily severed all business association and interest with the company in order to avoid
         potential future conflicts.

                  We requested that university conduct a review of 110 NSF-supported awards that were
         funded during the last 5 years to identify any additional conflicts. The university review reported
         that all PIs associated withNSF awards listed no conflicts and as an additional precaution
         mandated that all PIs attend new COl training. The university also developed new policies to
         ensure that at the start of any NSF-funded award the principal investigator must attend a COl
         training session before the university will allow disbursal of funds.

                   This case is closed with no further action taken.




         4




NSF OIG Form 2 (11102)
